Department of Health and Human Services

             OFFICE OF 

        INSPECTOR GENERAL 





 MEDICAID DRUG PRICING IN 

    STATE MAXIMUM 

    ALLOWABLE COST 

       PROGRAMS





                    Daniel R. Levinson

                     Inspector General


                      August 2013 

                     OEI-03-11-00640 

EXECUTIVE SUMMARY: MEDICAID DRUG PRICING IN STATE MAXIMUM
ALLOWABLE COST PROGRAMS
OEI-03-11-00640

WHY WE DID THIS STUDY

To take advantage of lower market prices for certain multiple-source drugs, States may use the
Federal upper limit (FUL) and/or State Maximum Allowable Cost (MAC) programs. However,
FUL amounts have often exceeded market prices, and the Affordable Care Act (ACA),
P.L. 111-148, required the Centers for Medicare & Medicaid Services (CMS) to change the
method it uses to calculate these amounts. Unlike the FUL program, State MAC programs give
States flexibility in determining which drugs to include in the program and in setting
reimbursement rates. Because generic drug use is expected to increase under ACA provisions
that expand Medicaid, an aggressive MAC program may help States contain Medicaid drug
costs.

HOW WE DID THIS STUDY

In January 2012, we surveyed the 45 States (including the District of Columbia) with MAC
programs to identify the methods used to set MAC prices and criteria used to select covered
MAC drugs. We also obtained the MAC prices and drugs covered at that time. We compared
States’ criteria for selecting drugs and setting prices in their MAC programs. We also calculated
the aggregate percentage difference between each State’s MAC prices and the FUL amounts in
effect for the first quarter of 2012 (based on published prices), as well as the draft FUL amounts
set by the ACA (based on average manufacturer price). Finally, we identified the State with the
most aggressive MAC program and calculated the potential national savings had all States used
this program.

WHAT WE FOUND

Most of the 45 States with MAC programs used acquisition cost to set MAC prices. In
comparison, the pre-ACA FUL amounts were, on average, nearly double State MAC prices in
January 2012, in the aggregate. However, the post-ACA FUL amounts were lower, on average,
than MAC prices, in the aggregate. Although these amounts were required to take effect in
October 2010, as of May 2013 CMS had not implemented them. Unlike the FUL program, State
MAC programs give States flexibility in setting their coverage requirements. As a result, State
MAC programs covered a wide range of drugs—significantly more than are covered under the
FUL program. Lastly, we found that certain States could achieve additional cost savings by
using more aggressive MAC pricing formulas and inclusion criteria.

WHAT WE RECOMMEND

We recommend that CMS complete the implementation of the post-ACA FUL amounts. We also
recommend that CMS encourage States to reevaluate their MAC programs for additional
cost-saving opportunities. CMS concurred with both recommendations.
TABLE OF CONTENTS


Objectives ....................................................................................................1 

Background ..................................................................................................1 

Methodology ................................................................................................5 

Findings......................................................................................................12 

      Most States with MAC programs used acquisition cost as the
      basis for setting MAC prices ..............................................................12 

      Aggregate pre-ACA FUL amounts were higher than State MAC                                                      

      prices, on average; however, the post-ACA FUL amounts were 

      lower ...................................................................................................13 

      States exercised their flexibility in setting varying MAC coverage
      criteria, which resulted in a wide number of covered drugs...............16 

      State MAC programs covered significantly more drugs than                                                              

      the FUL program ................................................................................17 

      States may achieve additional cost savings by using different                         

      MAC pricing formulas and inclusion criteria .....................................19 

Conclusion and Recommendations ............................................................21 

       Agency Comments and Office of Inspector General Response .........23 

Appendixes ................................................................................................24 

      A: Methodology Used To Compare State Maximum Allowable                                                            

      Cost (MAC) Programs ........................................................................24 

      B: Dispensing Fees and Benchmarks Used As the Basis For           

      Setting State Maximum Allowable Cost (MAC) Prices ....................27 

      C: State Maximum Allowable Cost (MAC) Prices Compared to                                                                  

      Federal Upper Limit (FUL) Amounts.................................................29 

      D: Criteria States Use To Select Drugs Included in State                   

      Maximum Allowable Cost (MAC) Programs.....................................31 

       E: Agency Comments ........................................................................39 

Acknowledgments......................................................................................41 

                  OBJECTIVES
                  1.	 To determine the pricing methodologies that State Medicaid agencies
                      (States) use to set payment amounts for their Maximum Allowable
                      Cost (MAC) programs.
                  2.	 To compare payment amounts under State MAC programs to Federal
                      upper limit (FUL) amounts.
                  3.	 To determine how States select the drugs included in their MAC
                      programs.
                  4.	 To compare MAC programs and estimate the savings had all States
                      used one State’s pricing and inclusion criteria that resulted in the
                      lowest overall drug cost.

                  BACKGROUND
                  The FUL program was established to ensure that Medicaid takes
                  advantage of lower market prices for certain multiple-source drugs
                  (i.e., generic drugs and brand-name drugs for which generic alternatives
                  are available). In addition to this federally administered program, States
                  have the option to develop their own MAC programs. Unlike the FUL
                  program, in which both payment amounts and inclusion criteria are set by
                  Federal law, State MAC programs give States greater latitude in
                  (1) selecting the drugs and (2) setting the reimbursement amounts for the
                  drugs included in their MAC programs. MAC programs enable States to
                  achieve additional savings by setting lower reimbursement amounts for
                  more multiple-source drugs than are included in the FUL program.
                  A 2004 study showed that the expansion of existing MAC programs and
                  the creation of new ones could contribute to cost containment nationwide.1
                  The cost-savings effect from a well-developed MAC program may be
                  even more apparent now because use of generic drugs—and spending on
                  them—is expected to increase as a result of provisions in the Affordable
                  Care Act (ACA), P.L. 111-148, that expand the Medicaid program.2 A
                  letter to State Governors in February 2011 from the Secretary of Health




                  1
                    Health Care Financing Review, Generic Drug Cost Containment in Medicaid: Lessons
                  from Five State MAC Programs, Spring 2004, Volume 25, Number 3.
                  2
                    U.S. Pharmacist, Trends in Generic Drug Reimbursement in Medicaid and Medicare.
                  Accessed at http://www.uspharmacist.com on January 25, 2012.



Medicaid Drug Pricing in State Maximum Allowable Cost Programs (OEI-03-11-00640)                   1
                  and Human Services also encouraged States to increase use of generic
                  drugs as a way to reduce costs.3
                  Medicaid Reimbursement for Prescription Drugs
                  Medicaid, jointly funded by Federal and State governments, provides
                  health coverage for certain low-income and medically needy people.
                  Federal Medical Assistance Percentage (FMAP) payments are the Federal
                  funds each State receives for its Medicaid program and are based on the
                  State’s per capita income.4 Individual States establish eligibility
                  requirements, benefit packages, and payment rates for their Medicaid
                  programs under broad Federal standards. All 50 States and the District of
                  Columbia (referred to as States) offer prescription drug coverage as part of
                  their Medicaid benefit packages. Medicaid expenditures for prescription
                  drugs totaled $28 billion in 2011.5
                  Medicaid beneficiaries typically receive covered drugs through
                  pharmacies, which are reimbursed by State Medicaid agencies. Federal
                  regulations require, with certain exceptions, that each State’s
                  reimbursement for a covered outpatient drug not exceed, in the aggregate,
                  the lower of (1) the estimated acquisition cost plus a reasonable dispensing
                  fee or (2) the provider’s usual and customary charge to the public for the
                  drug.6 CMS gives States flexibility in defining estimated acquisition cost,
                  with most States basing their calculation on list prices published in
                  national compendia.7, 8 For certain multiple-source drugs, States also
                  reimburse on the basis of the FUL program and/or State MAC programs.
                  CMS is collecting National Average Drug Acquisition Cost (NADAC)
                  data to develop a new reimbursement benchmark for State Medicaid
                  agencies that is more reflective of pharmacies’ acquisition costs. To


                  3
                    U.S. Department of Health and Human Services, Sebelius Outlines State Flexibility and
                  Federal Support Available for Medicaid—Full Letter, February 3, 2011. Accessed at
                  http://www.hhs.gov on June 11, 2012.
                  4
                    Pursuant to section 1905(b) of the Social Security Act (the Act), FMAPs can total
                  between 50 and 83 percent of a State’s Medicaid cost. 

                  5
                    Medicaid expenditures were calculated using data from the Centers for Medicare & 

                  Medicaid Services’ (CMS) Medicaid Budget and Expenditure System. This total does 

                  not reflect rebates collected through the Medicaid drug rebate program.

                  6
                    42 CFR § 447.512.

                  7
                    Historically, the majority of States used average wholesale price (AWP) to set 

                  reimbursement and obtained this data from the publisher First DataBank. However, First

                  DataBank stopped publishing AWPs as of September 2011. This has forced many States 

                  to reevaluate their AWP-based methodologies. See OIG, Replacing Average Wholesale
                  Price: Medicaid Drug Payment Policy (OEI-03-11-00060), July 2011.
                  8
                    CMS, Medicaid Covered Outpatient Prescription Drug Reimbursement Information by
                  State—Quarter Ending September 2012. Accessed at http://www.medicaid.gov on
                  January 29, 2013.



Medicaid Drug Pricing in State Maximum Allowable Cost Programs (OEI-03-11-00640)                       2
                  develop this benchmark, CMS will use a monthly nationwide survey to
                  obtain pharmacy drug acquisition costs from a random sample of
                  pharmacies.
                  Medicaid FUL Program
                  The FUL program limits Medicaid reimbursement for certain
                  multiple-source drugs and ensures that the Federal Government acts
                  as a prudent buyer by taking advantage of market prices for
                  multiple-source drugs.9 As of January 2012, 760 drugs had been identified
                  with FUL amounts.
                  Criteria for Inclusion in the FUL Program
                  Section 1927(e)(4) of the Act generally requires CMS to establish a FUL
                  amount for a drug when three or more formulations of the drug are rated
                  as therapeutically and pharmaceutically equivalent by the Food and Drug
                  Administration (FDA). In addition, Federal regulation has required that at
                  least three suppliers of the drug be listed in current editions (or updates) of
                  published compendia of cost information for drugs available for sale
                  nationally.10 FDA publishes a list of approved prescription drugs with
                  their therapeutic equivalents in the Approved Drug Products with
                  Therapeutic Equivalence Evaluations, commonly referred to as the
                  Orange Book.11 If FDA considers the drug to be therapeutically
                  equivalent, it receives an “A” rating.12
                  Calculating FUL Amounts
                  Historically, CMS sets FUL amounts equal to 150 percent of the price
                  published in national compendia for the least costly therapeutically
                  equivalent product that could be purchased by pharmacists in quantities of
                  100 tablets or capsules, plus a reasonable dispensing fee.13 States are
                  required to meet the FUL requirements only in the aggregate. In other
                  words, a State may pay more than the FUL amount for certain products as

                  9
                    CMS, Federal Upper Limits. Accessed at http://www.medicaid.gov on
                  January 15, 2013.
                  10
                     See, e.g., 42 CFR § 447.332.
                  11
                     FDA, Approved Drug Products with Therapeutic Equivalent Evaluations. Accessed at
                  http://www.fda.gov on August 15, 2012. To be therapeutically equivalent, a drug must
                  match an innovator drug in terms of active ingredients, dosage form, route of
                  administration, strength and/or concentration, and have the same clinical effect and safety
                  profile as the innovator drug.
                  12
                     If there are no known bioequivalence problems, drugs are given either an AA, AN, AO,
                  AP, or AT code, depending on the dosage form. If there are actual or potential
                  bioequivalence problems that have been resolved, an AB code is designated. FDA gives
                  any drug not considered therapeutically equivalent a “B” code.
                  13
                     See, e.g., 42 CFR § 447.332. If the drug is not commonly available in quantities of
                  100, the package size commonly listed is used; in the case of liquids, the commonly listed
                  size is used.



Medicaid Drug Pricing in State Maximum Allowable Cost Programs (OEI-03-11-00640)                           3
                  long as these payments are balanced out by lower payments for other
                  products.
                  The most commonly used published prices in setting FULs are wholesale
                  acquisition costs (WAC), AWPs, and direct prices. National compendia,
                  such as RedBook, publish these figures based on information provided by
                  drug manufacturers. Previous Office of Inspector General (OIG) work
                  consistently found that the published prices used to set Medicaid FUL
                  amounts often greatly exceeded prices available in the marketplace.14 For
                  example, an October 2012 OIG report found that FUL amounts based on
                  published prices were more than four times higher than sampled pharmacy
                  acquisition costs.15
                  Changes to FUL Amounts Under the ACA. Section 2503 of the ACA
                  amended section 1927(e) of the Act by revising FUL amounts to be no less
                  than 175 percent of the utilization-weighted average of the most recently
                  reported monthly average manufacturer prices (AMPs).16 The ACA
                  changes to the FUL amounts were required to take effect in October 2010.
                  State MAC Programs
                  In addition to the FUL program, States have the option to achieve
                  additional savings by developing MAC programs. MAC programs operate
                  similarly to the FUL program in that States establish maximum
                  reimbursement amounts for certain multiple-source drugs. Unlike the
                  FUL program, States have flexibility in determining the drugs covered
                  under their MAC programs and the formula used to set these drugs’ prices.
                  Compared to the FUL program, MAC programs enable States to achieve
                  additional savings by (1) setting reimbursement limits for multiple-source
                  drugs that are not included in the FUL program and (2) using a formula
                  that results in the MAC prices being lower than FUL amounts.
                  State MAC programs are designed to standardize reimbursement for
                  chemically equivalent drugs in the same strength, dosage, and package


                  14
                     For example, see OIG, Medicaid Drug Price Comparisons: Average Manufacturer
                  Price to Published Prices (OEI-05-05-00240), June 2005; Medicaid Drug Price
                  Comparison: Average Sales Price to Average Wholesale Price (OEI-03-05-00200),
                  June 2005; or A Comparison of Medicaid Federal Upper Limit Amounts to Acquisition
                  Costs, Medicare Payment Amounts, and Retail Prices (OEI-03-08-00490), August 2009.
                  15
                     OIG, Analyzing Changes to Medicaid Federal Upper Limit Amounts
                  (OEI-03-11-00650), October 2012.
                  16
                     Section 2503 of the ACA also amended section 1927(k) of the Act by revising the
                  definition of AMP. Under the ACA provisions, the new definition of AMP is the average
                  price paid to the manufacturer for the drug in the United States by (1) wholesalers for
                  drugs distributed to retail community pharmacies and (2) retail community pharmacies
                  that purchase drugs directly from the manufacturer.



Medicaid Drug Pricing in State Maximum Allowable Cost Programs (OEI-03-11-00640)                       4
                  size.17 The MAC price will typically apply to all brand and generic drugs
                  for each multiple-source drug.18 Because pharmacy reimbursement is
                  based on a single MAC price (regardless of whether a generic or brand
                  version of a drug is dispensed), the program creates a financial incentive
                  to substitute lower-cost generic equivalents for their brand-name
                  counterparts.19 In general, States will not reimburse pharmacies more than
                  a drug’s MAC price. However, many States provide pharmacies the
                  option to appeal or dispute the MAC price if it is lower than the purchase
                  price.
                  Reimbursement for Drugs in FUL and State MAC Programs
                  The FUL and State MAC programs may contain many of the same
                  multiple-source drugs. As a result, the Federal government and States
                  may set different upper limits for certain multiple-source drugs. States
                  have implemented various policies to determine the payment amount
                  when the FUL and MAC programs conflict. For example, a State may
                  defer to the FUL amount whenever a multiple-source drug is covered
                  under both the FUL and MAC programs. However, a State may also
                  determine the reimbursement for covered drugs by using the lower of the
                  FUL or State MAC prices.

                  METHODOLOGY
                  Data Sources and Collection
                  In January 2012, we sent online surveys to the 51 State Medicaid
                  pharmacy directors. We asked States to provide their prescription drug
                  reimbursement methodologies and dispensing fees and to identify whether
                  they had a MAC program as of January 1, 2012.20 We received completed
                  surveys from 50 States.21 Forty-five of the fifty responding States reported

                  17
                     For example, see Frequently Asked Questions on Iowa’s Department of Human
                  Services Web site. Accessed at http://www.mslciowa.com on January 25, 2012.
                  18
                     The State’s MAC rate may not apply to the brand version of the drug if the State
                  requires a prior authorization and “brand medically necessary” is indicated on the
                  prescription. States may also have a preferred drug list that includes the brand version of
                  the MAC drug. In these cases, the rate applies only to the generic version of the drug.
                  For example, see Iowa’s Department of Human Services Web site, Frequently Asked
                  Questions. Accessed at http://www.mslciowa.com on January 25, 2012.
                  19
                     Congressional Research Service, Prescription Drug Coverage Under Medicaid,
                  February 6, 2008. Accessed at http://aging.senate.gov on January 27, 2012.
                  20
                     Based on this answer, States responded to different survey questions.
                  21
                     We made multiple attempts to obtain a response from Nevada; however, this State did
                  not respond to our request. From CMS’s Web site, it appears that this State does not
                  have a MAC program. See CMS, Medicaid Prescription Reimbursement Information by
                  State—Quarter Ending December 2011. Accessed at http://www.medicaid.gov on
                  February 22, 2012.



Medicaid Drug Pricing in State Maximum Allowable Cost Programs (OEI-03-11-00640)                            5
                  that they had MAC programs. We also requested that each of the 45 States
                  with MAC programs provide a spreadsheet listing the drugs included in its
                  MAC program and their corresponding prices. All 45 States with MAC
                  programs provided these data during the first quarter of 2012.
                  Survey for States With MAC Programs. We asked the 45 responding
                  States with MAC programs to:
                        	 provide the pricing benchmarks (e.g., AWP, WAC, acquisition
                           cost) and formulas used to calculate MAC prices;
                        	 indicate whether they had changed the formula used to set MAC
                           prices since 2010;
                        	 indicate whether they intended to change before the end of 2012
                           the formula used to set MAC prices;
                        	 describe how they determine payment when a drug is covered
                           under both MAC and FUL programs (e.g., use the lower of the
                           MAC price or FUL amount, defer to the MAC price, or defer to
                           the FUL amount); and
                        	 provide the criteria used to determine which drugs are included in
                           their MAC programs.
                  To assist States in providing the criteria, we listed common criteria that
                  States use to select drugs covered under MAC programs and asked them to
                  indicate all that apply and to provide a description.22 For example, a State
                  first indicates that it uses therapeutic equivalence as a criterion and then
                  describes that it requires a drug to have at least two therapeutically
                  equivalent versions for it to be on the MAC list.
                  State Data Request. We requested that each of the 45 States provide a
                  spreadsheet listing the MAC prices for all drugs covered under its MAC
                  program. We requested that this spreadsheet include the drug name,
                  dosage and form, the code used to identify the drug, and the MAC price.
                  We also asked States to provide the date the drug was added to the MAC
                  program, the date the MAC price was last updated, and the date the drug
                  will be removed from the MAC program (if known).
                  Twenty-one of the forty-five States provided Generic Code Numbers
                  (GCN) on their spreadsheets; 10 provided Generic Sequence Numbers


                  22
                     We reviewed States’ Web sites with available information to devise a list of seven
                  commonly used criteria for selecting MAC drugs: approval rating, availability, drug cost,
                  drug utilization, generic availability, manufacturer supply, and therapeutic equivalence.
                  We also provided States with an “other” option to report any inclusion criteria not on this
                  list.



Medicaid Drug Pricing in State Maximum Allowable Cost Programs (OEI-03-11-00640)                           6
                  (GSN); and 1 provided National Drug Codes (NDC).23 We “crosswalked”
                  GSNs and NDCs to (i.e., matched them up with) their corresponding
                  GCNs using information in First DataBank’s drug compendium. The
                  remaining 13 States either did not provide a drug code (generally because
                  the State considered it proprietary) or provided codes that we were unable
                  to crosswalk to a GCN. Appendix A provides more detail about our
                  review of these spreadsheets and our crosswalking of States’ drug codes to
                  GCNs. Table 1 provides a summary of the survey responses and
                  spreadsheet information received from the responding States.
                  Table 1: Number of States Responding to Request

                                                                                             Number of
                    Data Collected from States
                                                                                                States
                    Responded to Survey                                                              50

                    State Had MAC Program                                                            45

                    State Did Not Have MAC Program                                                    5

                    Responded with Spreadsheet of MAC Prices                                         45

                    State MAC Spreadsheet Contained GCNs or Codes That Could Be                      32
                    Matched With GCNs

                    State MAC Spreadsheet Did Not Contain Drug Codes or Codes Could Not Be           13
                    Matched With GCNs

                  Source: OIG analysis of States’ MAC survey responses, 2012.

                  First DataBank Drug Compendium. Using First DataBank’s drug
                  compendium, we obtained CMS-calculated FUL amounts based on
                  published prices for the first quarter of 2012 (i.e., pre-ACA FULs that
                  were in effect at this time). We also used information in the drug
                  compendium to identify the generic drugs in CMS’s Medicaid State Drug
                  Utilization Data file.
                  CMS Post-ACA FULs. We obtained the January 2012 draft FUL amounts
                  based on the ACA methodology (i.e., ACA FULs based on AMPs) from
                  CMS’s Web site. We also reviewed information from this site to
                  determine whether CMS had implemented the post-ACA FUL amounts as
                  of May 2013 and whether CMS had posted information about the
                  implementation of AMP-based FULs.



                  23
                    GCNs and GSNs are, respectively, five-digit and six-digit numbers that are specific to
                  the drug’s active ingredient, route of administration, dosage form, and drug strength.
                  These codes can be used to group pharmaceutically equivalent products together and are
                  the same across manufacturers and package sizes. NDCs are unique 11-digit identifiers
                  that indicate the manufacturer, product dosage form, and package size of a drug.



Medicaid Drug Pricing in State Maximum Allowable Cost Programs (OEI-03-11-00640)                             7
                  CMS Medicaid Drug File. We obtained the Medicaid State Drug
                  Utilization Data (hereinafter referred to as Medicaid reimbursement data)
                  for the first half of 2011 from CMS’s Web site.24 These data included
                  reimbursement and utilization information for 46 of the 51 States.25 This
                  file also listed the total Medicaid reimbursement (ingredient costs and
                  dispensing fees), number of prescriptions, and number of units distributed
                  for each drug provided by NDC in each State.
                  Data Analysis
                  MAC Programs’ Reimbursement Formulas and Inclusion Criteria. Using
                  the survey responses for the 45 States with MAC programs, we
                  determined the number of States that used each pricing benchmark (or a
                  combination of benchmarks) in setting MAC prices. We calculated the
                  average price difference in dispensing fees between States that used
                  average acquisition cost (AAC) in setting MAC prices and States that did
                  not.26
                  We also reviewed the 45 States’ survey responses to determine the criteria
                  States used to select the drugs included in their MAC programs. We
                  calculated the number of criteria used and determined the extent to which
                  these criteria varied among States.
                  Number of Covered MAC Drugs. We calculated the total number of drugs
                  covered by each State’s MAC program and the median covered by all
                  States. We defined the number of drugs as the number of GCN codes
                  represented on the State’s MAC list. Therefore, we included in this
                  analysis the 32 States that either used GCNs or were States for which we
                  could crosswalk the NDC or GSN to a GCN.27 We identified the States
                  with the most- and least-covered drugs and reviewed their MAC drug
                  inclusion criteria.




                  24
                     These data were downloaded on February 23, 2012. As of May 2012, these were the
                  most recent quarters available.

                  25
                     Medicaid reimbursement data were missing for Alabama, Arizona, Nevada, 

                  Rhode Island, and Vermont. Additionally, Kansas, Louisiana, Montana, New Jersey, 

                  South Carolina, Virginia, and Washington had data for only the first or second quarter of 

                  2011. 

                  26
                     For the dispensing fee comparison, we used data from 33 States that had either
                  1 dispensing fee, a standard dispensing fee, or a separate dispensing fee for generic drugs.
                  27
                     Thirteen States were excluded because they either did not provide drug codes or
                  because the drug codes provided were not comparable to a GCN (i.e., the drug counts
                  would have been different because of the drug code and not because of an actual
                  difference in the number of covered drugs).



Medicaid Drug Pricing in State Maximum Allowable Cost Programs (OEI-03-11-00640)                            8
                  Comparison of MAC and FUL Amounts. We determined the percentage of
                  drugs covered by the 32 States’ MAC programs that were not covered and
                  were covered by the pre-ACA FUL program, on average.28
                  When a drug was covered under both programs, we calculated the
                  aggregate percentage difference between the State’s MAC prices and the
                  pre-ACA FUL amounts (i.e., FUL amounts based on published prices), on
                  average.29 We also determined the percentage of drugs with MAC prices
                  that were lower than the pre-ACA FUL amounts for each State and on
                  average for all 32 States. We determined the number of States that
                  (1) reimburse using the lower of the MAC price or FUL amount; (2) defer
                  to the MAC price; or (3) defer to the FUL amount.
                  We calculated the average aggregate percentage difference between the
                  32 States’ MAC prices and the post-ACA FUL amounts (based on AMP)
                  for January 2012. We also determined the average number of additional
                  drugs State MAC programs covered compared to the post-ACA FUL
                  program. We used CMS’s Web site to determine whether the agency had
                  implemented the post-ACA FUL amounts as of May 2013. See Appendix
                  A for additional details about the FUL portion of our analysis.
                  Savings Estimate. Using CMS’s Medicaid reimbursement data and First
                  DataBank’s drug compendium, we identified the NDCs for generic drugs
                  and matched these to the drug’s corresponding GCN. We calculated the
                  volume-weighted average reimbursement amount per GCN in each State.30
                  We calculated these averages for all 46 States with available Medicaid
                  reimbursement data in the first half of 2011, including States that did not
                  have MAC programs.
                  We identified the MAC program that would result in the greatest savings
                  by estimating expenditures had each of the 32 States’ MAC programs
                  been used by the 46 States with first-half 2011 Medicaid reimbursement




                  28
                     Because FULs are set by NDC, we crosswalked the NDC to its corresponding GCN
                  and GSN code. We then matched the FUL amounts to the State’s MAC prices using the
                  drug code type provided by the State.
                  29
                     We did not include all MAC prices in this comparison. For some drugs, certain States
                  reported multiple MAC prices for the same drug code. If the MAC price varied by more
                  than $0.10, we removed that drug code from this analysis. If the MAC price varied by
                  $0.10 or less, we used the highest price in this analysis.
                  30
                     To do so, we summed each State’s total expenditures for a GCN and divided that by its
                  total utilization. We doubled the reimbursement and utilization figures for the seven
                  States that had one quarter of Medicaid reimbursement data to account for the missing
                  quarter. This assumes that reimbursement and utilization does not change significantly
                  from quarter to quarter.



Medicaid Drug Pricing in State Maximum Allowable Cost Programs (OEI-03-11-00640)                         9
                  data.31, 32 To identify the MAC program that would result in the greatest
                  savings, for each of the 32 States, we performed the following steps:
                  Step 1: 	calculated the dollar differences between the MAC prices of one
                           State (State A) and the volume-weighted average reimbursement
                           amounts of another State (State B) for each drug used in State B;33
                  Step 2: 	multiplied each drug’s dollar difference by the drug’s first-half
                           2011 utilization in State B;34
                  Step 3: 	summed these differences to get the total amount by which
                           spending would have changed had State B used the MAC prices
                           set by State A (we did not include dispensing fees);35
                  Step 4: 	repeated steps 1–3 until State A’s MAC prices were compared to
                           the volume-weighted average reimbursement amounts in all
                           remaining 45 States (i.e., the 46 States with Medicaid
                           reimbursement data, minus State A); and
                  Step 5: 	calculated the aggregate amount Medicaid spending would have
                           changed had each of the 45 States used State A’s MAC program.
                  We performed these five steps for all 32 States for which we had GCNs.
                  This resulted in 32 spending estimates based on Medicaid reimbursement
                  data for 46 States. We then identified which MAC program would have
                  resulted in the greatest savings estimate (see Appendix A for more detail
                  on this analysis). We also calculated the percentage reduction in Medicaid
                  spending on generics in each of the 46 States had they used the MAC
                  program with the greatest savings.


                  31
                     The 32 States are the States that provided GCNs or provided drug codes that we
                  crosswalked to a GCN. 

                  32
                     Although the States’ MAC prices and drugs were current as of January, February, or

                  March 2012, the most recent data we could use as the basis for our estimates were the

                  first and second quarters of 2011. 

                  33
                     This analysis applies only to those drugs for which, for example, State A set a MAC 

                  price for a drug and State B had Medicaid utilization for that same drug. Therefore, this 

                  savings analysis takes into account not only savings resulting from lower MAC prices, 

                  but also savings resulting from a more extensive MAC list. 

                  34
                     For certain drugs, a State may have set more than one MAC price for one GCN. In

                  these cases, we excluded the drug if the price varied by more than $0.10. If the prices 

                  varied by $0.10 or less, we used the highest MAC price for that drug in this analysis. See 

                  Appendix A for more detail.

                  35
                     We subtracted the amount spent on dispensing fees from each State’s total. To do so, 

                  we multiplied the State’s dispensing fee by the total number of prescriptions per GCN 

                  and then subtracted this amount from that GCN’s total expenditures. We obtained the 

                  State’s dispensing fee amount from its survey response. If a State applied different

                  dispensing fees for brand or generic drugs, we used the fee for generics; if a State used a

                  tiered dispensing fees system, we used the tier’s average price. 




Medicaid Drug Pricing in State Maximum Allowable Cost Programs (OEI-03-11-00640)                          10
                  Limitations
                  The surveys and MAC spreadsheets were all self-reported data provided
                  by States. We did not independently verify the accuracy of these data. All
                  MAC prices provided by States were current at the time States provided
                  the information (i.e., within the first quarter of 2012).
                  Of the 45 States with MAC programs, 8 were unable to provide drug
                  codes that corresponded to their MAC prices and 5 provided drug codes
                  that we were unable to link to other codes. Therefore, we did not include
                  these 13 States’ MAC prices in our determination of the State with the
                  MAC program resulting in the overall greatest savings. This means that
                  any of these 13 States may have had a MAC program that could produce a
                  higher aggregate savings estimate than the 32 States included in the
                  analysis. We also were unable to use these 13 States’ data in our
                  comparisons of MAC and FUL prices and in the calculation of the number
                  of drugs included in each State’s MAC program.
                  We did not verify the completeness or accuracy of CMS’s FUL amounts.
                  The post-ACA FUL amounts provided on CMS’s Web site are draft
                  amounts that have not been used as the basis for Medicaid reimbursement.
                  We also did not verify the accuracy of the FUL amounts obtained from
                  First DataBank’s Web site.
                  The savings estimates reflect the amount by which a State could reduce
                  spending on generic drugs had it used the prices for drugs included in
                  another State’s MAC program; this estimate does not take into account the
                  effect that replacing a MAC program may have on the State’s prices for all
                  drugs. In addition, the first and second quarter of 2011 Medicaid
                  reimbursement data we obtained from CMS’s Web site did not include
                  data for 5 of the 51 States. Our savings estimates would have been
                  different had we been able to include data from these States. Lastly, seven
                  States had reimbursement and utilization data for just one of the two
                  quarters. We doubled the reimbursement and utilization in these States,
                  which assumes that these figures would not change significantly from
                  quarter to quarter.
                  Standards
                  This study was conducted in accordance with the Quality Standards for
                  Inspection and Evaluation issued by the Council of the Inspectors General
                  on Integrity and Efficiency.




Medicaid Drug Pricing in State Maximum Allowable Cost Programs (OEI-03-11-00640)           11
                  FINDINGS
                  Most States with MAC programs used acquisition
                  cost as the basis for setting MAC prices
                  Of the 45 States with MAC programs, 41 provided the pricing benchmark
                  used as the basis to set these prices.36 Twenty-nine of the forty-one States
                  (71 percent) reported using pharmacy acquisition cost as either the sole
                  basis for setting MAC prices or in conjunction with other benchmarks.
                  Specifically, 14 of the 29 States used only acquisition cost, and the
                  other 15 used a combination of acquisition cost and WAC, AWP and/or
                  AMP.37, 38 See Table 2 for the benchmarks all States used as the basis for
                  setting MAC prices and Appendix B for individual States’ benchmarks.
                  Table 2: Drug Pricing Benchmarks States Use To Set MAC Prices

                                                                                                                    Number of
                    Benchmark(s) Used To Set MAC Prices                                                                States

                    Formula includes acquisition cost

                    Acquisition cost                                                                                         14

                    Acquisition cost and WAC                                                                                 10

                    Acquisition cost, WAC, and AWP                                                                             4

                    Acquisition cost, WAC, AWP, and AMP                                                                        1

                    Formula does not include acquisition cost

                    WAC and AWP                                                                                                5

                    WAC                                                                                                        5

                    AWP                                                                                                        2

                        Total Number of States Providing Benchmarks                                                          41

                    State did not provide benchmark

                    No specific benchmark used in MAC formula                                                                  1

                    Benchmark used in MAC formula was proprietary                                                              3

                  Source: OIG analysis of State MAC surveys, 2012. 

                  Note: Four States that provided benchmarks also reported using additional benchmarks that are not shown in this

                  table.





                  36
                     Three States reported that this information is proprietary, and one State reported that it
                  did not use a specific benchmark. 

                  37
                     Two States reported that they also used other State MAC lists as a reference in setting 

                  their MAC prices. 

                  38
                     States that used a combination of benchmarks may, for example, apply a different

                  formula based on WAC and acquisition cost to the same drug and select the lowest 

                  resulting MAC price. However, many States reported that the exact formula was 

                  proprietary and did not explain how they used multiple benchmarks to set MAC prices. 




Medicaid Drug Pricing in State Maximum Allowable Cost Programs (OEI-03-11-00640)                                                12
                  The 29 States reported obtaining acquisition cost data from sources such
                  as pharmacy surveys and invoices, wholesaler and retailer data purchased
                  by the State’s contractor, or through a proprietary database. A small
                  number of States specifically mentioned that they apply a percentage
                  markup to the acquisition cost to set a MAC price. For example, one State
                  calculated MAC prices using the AAC plus 120 percent, whereas another
                  State set it at 150 percent of the lowest acquisition cost. Many States
                  could not provide a formula either because it was considered proprietary
                  or because they do not use a specific formula (e.g., they calculate on a
                  case-by-case basis, they use a multi-step pricing factor calculation, or they
                  vary the price in response to market trends).
                  In addition to the MAC price, the total Medicaid payment for a drug
                  includes a dispensing fee. Among 33 MAC States, dispensing fees ranged
                  from $1.75 to $10.64 per prescription.39 On average, those States using
                  acquisition cost to set MAC prices, either solely or in conjunction with
                  another pricing benchmark, set dispensing fees that were $0.44 higher than
                  States not using acquisition cost ($4.40 compared to $3.96). See
                  Appendix B for a list of States’ dispensing fees.


                  Aggregate pre-ACA FUL amounts were higher than
                  State MAC prices, on average; however, the post-ACA
                  FUL amounts were lower
                  Effective October 2010, section 2503 of the ACA required CMS to change
                  the method it uses to calculate FUL amounts. CMS has taken steps to
                  implement the post-ACA FUL amount by calculating the new amounts
                  and issuing draft FUL amounts based on AMPs for review and comment.40
                  However, as of May 2013, CMS had yet to implement these changes and
                  continues to base FUL amounts on 150 percent of the lowest published
                  price.41 Prior OIG reports have consistently found that these published
                  prices often exceed prices available in the marketplace.
                  In addition to issuing the draft post-ACA FUL amounts, which represent
                  monthly prices, CMS has also made available draft 3-month rolling
                  averages of the post-ACA FUL amounts. CMS developed these averages
                  in response to comments that the post-ACA FULs fluctuate and, as a
                  result, could create problems for pharmacies because they would be
                  unable to predict State reimbursement rates. According to CMS’s Web

                  39
                     These are the States that provided a single, standard, or generic dispensing fee.
                  40
                     CMS, Draft Affordable Care Act Federal Upper Limits. Accessed at 

                  http://www.medicaid.gov on April 17, 2013. 

                  41
                     Ibid. 




Medicaid Drug Pricing in State Maximum Allowable Cost Programs (OEI-03-11-00640)                         13
                  site, once the draft post-ACA FUL amounts and the draft 3-month rolling
                  average FUL amounts are finalized, States can use either of these to
                  develop a pharmacy reimbursement methodology that will allow their
                  pharmacy payments to remain within the FUL in the aggregate (depending
                  on the approved state plan).42
                  On average, pre-ACA FUL amounts were nearly double State
                  MAC prices, in the aggregate
                  The pre-ACA FUL amounts in effect for January 2012 were an average of
                  1.96 times greater, in the aggregate, than the MAC prices set by the
                  32 States.43 In fact, all States except Hawaii had lower aggregate MAC
                  prices than pre-ACA FUL amounts (Hawaii’s MAC prices were 2.3 times
                  greater than pre-ACA FUL amounts). See Table 3 for the comparisons
                  between State MAC prices and pre-ACA FUL amounts and Appendix C
                  for individual State comparisons.
                  Table 3: Comparison of Pre-ACA FUL Amounts and MAC Prices

                    Comparison of Pre-ACA FUL and MAC Prices*                                                             Number
                                                                                                                         of States
                    Aggregate FUL amount less than aggregate MAC prices                                                         1

                    Aggregate FUL amount between 1 and 1.5 times higher than aggregate MAC prices                               5

                    Aggregate FUL amount between 1.51 and 2.0 times higher than aggregate MAC prices                            8

                    Aggregate FUL amount between 2.01 and 2.5 times higher than aggregate MAC prices                           15

                    Aggregate FUL amount between 2.51 and 3.0 times higher than aggregate MAC prices                            3

                        Total Number of States                                                                                 32

                        Average Amount Aggregate FUL Is Greater Than Aggregate MAC                                      1.96 times

                        Median Amount Aggregate FUL Is Greater Than Aggregate MAC                                       2.11 times

                  Source: OIG analysis of State MAC prices and pre-ACA FUL amounts, 2012.
                  * These percentages exclude certain drugs that had multiple MAC prices for each GCN within a State.



                  Overall, States set MAC prices that were lower than the pre-ACA FUL
                  amounts for an average of 85 percent of the drugs covered under both
                  programs. Twenty-eight of the thirty-two States had set MAC prices that
                  were lower than pre-ACA FUL amounts for at least 75 percent of their
                  covered drugs. For example, one State set MAC prices lower than the pre-
                  ACA FUL amounts for 612 of the 613 drugs covered under both programs.


                  42
                       CMS, Draft Affordable Care Act Federal Upper Limits. Accessed at 

                  http://www.medicaid.gov on April 17, 2013.

                  43
                     This comparison does not include dispensing fees. 




Medicaid Drug Pricing in State Maximum Allowable Cost Programs (OEI-03-11-00640)                                              14
                  Hawaii was the only State in which the majority of its covered drugs
                  (90 percent) had higher MAC prices than pre-ACA FUL amounts.
                  However, Hawaii was also the only State reporting that it would use the
                  FUL amount for drugs covered under both programs. The majority of the
                  States (21 of 32) instead reported that they defer payment to the lower
                  price (typically the MAC price). An additional seven States reported that
                  they always defer to the MAC price.
                  On average, post-ACA FUL amounts were 22 percent lower than
                  State MAC prices, in the aggregate
                  Had the post-ACA FUL amounts been implemented in January 2012
                  (i.e., FUL amounts based on AMP), the aggregate post-ACA FUL amounts
                  would have been 22 percent lower than the 32 States’ aggregate MAC
                  prices, on average.44 The post-ACA FUL amounts were lower than
                  aggregate MAC prices in all but two States. Among the 30 States in
                  which post-ACA FUL amounts were lower, 17 set MAC prices that were
                  within 20 percent of the post-ACA FUL amounts. See Table 4 for the
                  comparisons between post-ACA FULs and MAC prices and Appendix C
                  for individual State comparisons.
                  Table 4: Comparison of Post-ACA FUL Amounts and MAC Prices

                                                                                                                         Number of
                       Percentage Comparison of Post-ACA FUL and MAC Prices*                                                States

                       Aggregate post-ACA FUL amount is higher than aggregate MAC prices                                         2

                       Aggregate post-ACA FUL amount is 0.1%–10% less than aggregate MAC prices                                  8

                       Aggregate post-ACA FUL amount is 10.1%–20% less than aggregate MAC prices                                 9

                       Aggregate post-ACA FUL amount is 20.1%–30% less than aggregate MAC prices                                 3

                       Aggregate post-ACA FUL amount is 30.1%–40% less than aggregate MAC prices                                 4

                       Aggregate post-ACA FUL amount is 40.1%–50% less than aggregate MAC prices                                 4

                       Aggregate post-ACA FUL amount is over 50.1% less than aggregate MAC prices                                2

                         Total Number of States                                                                                 32

                         Average Percentage Aggregate Post-ACA FUL Is Less Than Aggregate MAC                            22 percent

                         Median Percentage Aggregate Post-ACA FUL Is Less Than Aggregate MAC                             15 percent

                   Source: OIG analysis of State MAC prices and post-ACA FUL amounts, 2012.
                   * These percentages exclude certain drugs that had multiple MAC prices for each GCN within a State.




                  44
                       This comparison does not include dispensing fees.



Medicaid Drug Pricing in State Maximum Allowable Cost Programs (OEI-03-11-00640)                                                15
                  States exercised their flexibility in setting varying
                  MAC coverage criteria, which resulted in a wide
                  number of covered drugs
                  The 45 States with MAC programs used a mixture of criteria with varying
                  requirements when selecting covered drugs.45 In fact, three of these States
                  reported not using any of the criteria we had specified on the survey when
                  determining what drugs are included in the MAC program.46 Most States
                  (32) required a specific number of manufacturers to supply the drug for it
                  to be included in the MAC program, with many of these States (23 of the
                  32) requiring 1 or 2 manufacturers.47 Additionally, 25 of the 29 States
                  with criteria for the number of generic versions required at least 1 or 2
                  versions.48
                  States may have also set inclusion requirements based on one or more of
                  the following criteria for the drug: (1) FDA approval rating (e.g., A rated,
                  AB rated), (2) number of therapeutically equivalent versions (e.g., two
                  versions, three versions), (3) availability to pharmacies (e.g., excludes
                  drugs with shortages), and (4) utilization (e.g., number of claims submitted
                  per quarter). See Table D-1 in Appendix D for individual State details.
                  The Number of Drugs Included in States’ MAC Programs Ranged From
                  494 to 5,355. In January 2012, the 32 States with GCN codes covered
                  between 494 drugs in Montana to 5,355 drugs in Massachusetts (median
                  of 1,675 drugs; see Figure 1 and Table D-2 in Appendix D). Montana
                  reported that it would include A-rated therapeutically equivalent drugs
                  with at least three rebate-eligible manufacturers (e.g., two generic and one
                  brand manufacturer) in its MAC program.49 The criteria set by
                  Massachusetts, the State with the most drugs in its MAC program, was not


                  45
                     Additionally, three States specifically excluded certain drug groups, such as HIV
                  drugs, vaccines, or blood clotting factors from the MAC program, regardless of whether
                  the drug met the States’ criteria.
                  46
                     Instead, one State required that the drug have an active, rebateable NDC; one State’s
                  criteria depended on and varied as to whether the drug was new to the MAC program or
                  already included; and one State did not have criteria for selecting drugs included in its
                  MAC program.
                  47
                     Some of these States specified that these manufacturers must be rebate eligible or
                  generic manufacturers. For example, a State requiring two rebate-eligible manufacturers
                  specified that it could be one brand and one generic manufacturer or no brand
                  manufacturer and two generic manufacturers.
                  48
                     These criteria may overlap somewhat with the manufacturer supply criteria. For
                  example, 10 States did not require a specific number of generic versions but did require a
                  specific number of drug manufacturers.
                  49
                     In addition, Montana reported that its contractor monitors drug shortages to ensure that
                  the MAC drug is readily available. Montana also assesses the net cost of the MAC price
                  to determine if its use is financially advantageous.



Medicaid Drug Pricing in State Maximum Allowable Cost Programs (OEI-03-11-00640)                           16
                  as restrictive and required only that the drug have at least four claims in
                  the prior 90 days.
                  Figure 1. Number of MAC Drugs Covered in the 32 States

                                    14

                                    12

                                    10

                                    8
                        Number of
                          States
                                    6

                                    4

                                    2

                                    0
                                         1,000 drugs or 1,001 to 1,500 1,501 to 2,000 2,001 to 2,500 2,501 drugs or
                                             fewer          drugs          drugs          drugs          more

                  Source: OIG analysis of State MAC spreadsheets, 2012.



                  State MAC programs covered significantly more
                  drugs than the FUL program
                  Unlike the FUL program, which selects covered drugs on the basis of
                  Federal law and regulation, States are afforded flexibility in selecting
                  which drugs to cover under their MAC programs. This enables States to
                  cover substantially more drugs than both the pre- and post-ACA FUL
                  programs.
                  On average, 60 percent of the drugs covered by 32 States’
                  MAC programs were not covered by the pre-ACA FUL program
                  All of these 32 States’ MAC programs included drugs covered and drugs
                  not covered under the pre-ACA FUL program in January 2012 (i.e., the
                  FUL amounts in effect that were based on published prices).50 On average,
                  the majority (60 percent) of drugs that States included in their MAC
                  programs were not covered under the pre-ACA FUL program as of
                  January 2012. States’ MAC programs covered an additional 203 to
                  4,607 drugs that were not included in the pre-ACA FUL program. See
                  Table 5 for the numbers of States and their percentages and average
                  numbers of MAC drugs not covered under the pre-ACA FUL program.



                  50
                       The pre-ACA FUL program covered 760 drugs in January 2012.



Medicaid Drug Pricing in State Maximum Allowable Cost Programs (OEI-03-11-00640)                                 17
                  Massachusetts’ MAC program covered the highest percentage of drugs not
                  included in the pre-ACA FUL program (86 percent). Conversely, Ohio’s
                  MAC program, which included 926 drugs, covered the lowest percentage
                  (36 percent) of drugs not included in the pre-ACA FUL program.
                  Table 5: Percentage of States’ MAC Drugs Not Covered Under the Pre-ACA
                  FUL Program
                                                                                                              Average
                                                                              Average Number
                                                                                                         Percentage of
                    Number of Drugs in MAC                                       of Drugs Not
                                                     Number of States                                       Drugs Not
                    Program                                                    Covered Under
                                                                                                        Covered Under
                                                                                 Pre-ACA FUL
                                                                                                         Pre-ACA FUL

                    1,000 drugs or fewer                               2                      268                39%

                    1,001 to 1,500 drugs                              12                      724                53%

                    1,501 to 2,000 drugs                               7                     1,021               59%

                    2,001 to 2,500 drugs                               7                     1,430               66%

                    2,501 drugs or more                                4                     3,046               79%

                  Source: OIG analysis of State MAC prices and pre-ACA FUL amounts, 2012.

                  On average, 53 percent of the drugs covered by States’ MAC
                  programs were not covered by the post-ACA FUL program
                  Although the post-ACA FUL amounts were less than the States’ MAC
                  prices for the majority of the drugs covered under both programs, States
                  still covered a significantly higher number of drugs in their MAC
                  programs. On average, States set MAC prices for 1,089 more drugs than
                  were covered under the post-ACA FUL program.51 This means that States
                  would need to continue to rely on their MAC program to set prices for
                  these drugs. See Table 6 for the percentage and average number of MAC
                  drugs not covered under the post-ACA FUL program.
                  Table 6: Percentage of States’ MAC Drugs Not Covered Under the
                  Post-ACA FUL Program

                                                                                                               Average
                                                                               Average Number            Percentage of
                    Number of Drugs in MAC                                        of Drugs Not       Drugs Not Covered
                                                     Number of States           Covered Under
                    Program                                                                            Under Post-ACA
                                                                                 Post-ACA FUL                     FUL

                    1,000 drugs or fewer                               2                      244                33%

                    1,001 to 1,500 drugs                              12                      616                46%

                    1,501 to 2,000 drugs                               7                      897                52%

                    2,001 to 2,500 drugs                               7                     1,290               60%

                    2,501 drugs or more                                4                     2,912               75%

                  Source: OIG analysis of State MAC prices and post-ACA FUL amounts, 2012.


                  51
                       The post-ACA FUL program covered 924 drugs in January 2012.



Medicaid Drug Pricing in State Maximum Allowable Cost Programs (OEI-03-11-00640)                                    18
                  States may achieve additional cost savings by using
                  different MAC pricing formulas and inclusion criteria
                  Until the post-ACA FUL amounts are implemented, certain States could
                  significantly reduce drug expenditures by changing to the structure of their
                  MAC programs. Once the post-ACA FUL amounts are implemented,
                  States can still achieve significant savings because they have the
                  opportunity to cover a significantly larger number of drugs in the MAC
                  programs than in the FUL program.
                  We identified Wyoming’s MAC program as the one that could produce the
                  greatest savings had all other States considered using it as a model.52, 53
                  We found that 39 of 45 States would have saved $483 million in the first
                  half of 2011 (this estimate excludes dispensing fees) had they used
                  Wyoming’s MAC program.54, 55 Wyoming set MAC prices for its
                  1,592 drugs by comparing and using prices on the basis of (1) acquisition
                  cost plus a markup, (2) WAC minus a percentage, (3) AWP minus a
                  percentage, or (4) AMP plus a markup.
                  Fourteen States could have reduced spending on generic
                  drugs by more than 20 percent had they used Wyoming’s MAC
                  program
                  We estimated that using Wyoming’s MAC program (excluding dispensing
                  fees) would have resulted in the greatest percentage reduction in Medicaid
                  generic-drug spending for Alaska. Had Alaska reimbursed for generic
                  drugs using Wyoming’s MAC prices, it would have reduced expenditures
                  for generic drugs from $43 million to $22 million (50 percent decrease) in
                  the first half of 2011. Alaska’s higher expenditures are most likely caused
                  by its lack of a MAC program in the first half of 2011 and its use of AWPs
                  as the basis for reimbursement.56  See Table 7 for the percentage reduction

                  52
                     This savings estimate is based on the prices for the drugs included in Wyoming’s MAC
                  program.

                  53
                     We were able to use only the data from the 32 States with MAC programs that 

                  provided GCNs or provided drug codes we crosswalked to a GCN. This means that the

                  13 other States may or may not have had a more aggressive MAC program.

                  54
                     Although Wyoming’s MAC program resulted in the greatest aggregate savings,

                  six States would have spent an additional $18 million on generic drugs had they used

                  Wyoming’s MAC program. All six States used acquisition cost data (among other 

                  benchmarks) in setting reimbursement prices. In fact, one of these States had eliminated

                  its MAC programs because, according to the State, reimbursement based on actual 

                  acquisition cost was lower than previous MAC prices. 

                  55
                     We also determined which State had the most advantageous combination of MAC 

                  pricing and dispensing fees. Including dispensing fees, Michigan’s reimbursement

                  formula would have resulted in the greatest savings. Michigan’s standard dispensing fee 

                  per prescription was $2.75, compared to $5.00 in Wyoming. 

                  56
                     Alaska implemented a MAC program in September 2011.



Medicaid Drug Pricing in State Maximum Allowable Cost Programs (OEI-03-11-00640)                        19
                  in generic-drug spending if States had applied Wyoming’s MAC program
                  in the first half of 2011.
                  Table 7: Percentage Reduction or Increase in State Spending on Generic
                  Drugs by Using Wyoming’s MAC Program
                                                                                   Number of
                    Range of Reduction or Increase                                    States

                    Spending reduction between 40.01% and 50%                             2

                    Spending reduction between 30.01% and 40%                             3

                    Spending reduction between 20.01% and 30%                             9

                    Spending reduction between 10.01% and 20%                            18

                    Spending reduction between 0.01% and 10%                              7

                    Spending Increase                                                     6

                       Total Number of States                                             45
                  Source: OIG analysis of State MAC data, 2012.




Medicaid Drug Pricing in State Maximum Allowable Cost Programs (OEI-03-11-00640)               20
                  CONCLUSION AND RECOMMENDATIONS
                  As a result of expansions set forth in the ACA, it is estimated that an
                  additional 10 million people will enroll in Medicaid by 2016 and that use
                  of and spending on generic drugs will increase. In preparation for this
                  increase in Medicaid use and expenditures, it is in the States’ best financial
                  interest to reevaluate and for CMS to implement cost-containment
                  strategies. Our findings demonstrate the significant value MAC programs
                  have in containing Medicaid drug costs. This is because States can
                  develop MAC programs that: (1) set drug prices lower than FUL amounts
                  and (2) cover substantially more drugs than the FUL program does.
                  To maximize Medicaid drug cost-containment strategies, we recommend
                  that CMS:
                  Complete Implementation of Post-ACA AMP-Based FUL
                  Amounts
                  Consistent with previous OIG work, our findings show that FUL amounts
                  based on published prices greatly exceed other price points, in this case
                  the State MAC prices. Although the post-ACA FUL amounts were to take
                  effect in October 2010, as of May 2013, CMS had yet to implement these
                  amounts. This means that FUL amounts are still based on prices that
                  result in inflated payments for many multiple-source drugs. Our findings
                  highlight the necessity for States to use a MAC program as a tool for
                  containing Medicaid drug costs, especially when the pre-ACA FULs
                  remain in effect.
                  Although we found that, on average, post-ACA FUL amounts were lower
                  than the MAC prices in the aggregate, this does not necessarily mean that
                  the post-ACA FUL amounts will reimburse States below their acquisition
                  costs. Many of the States that based MAC pricing on acquisition cost did
                  not reimburse at acquisition cost but applied a markup to set the price. In
                  addition, a prior OIG report had found that sampled pharmacy acquisition
                  costs are still lower than the post-ACA FUL amounts, in the aggregate.57
                  CMS is also developing price points for States to use to ensure that
                  Medicaid payment amounts do not over- or underestimate the costs
                  pharmacies pay for drugs. For example, States may compare their MAC
                  prices to the acquisition costs collected through CMS’s NADAC surveys
                  (published in draft form as of May 2013). In addition, CMS is developing
                  3-month rolling average post-ACA FUL amounts that States can use in
                  place of the monthly post-ACA FUL amounts we used in our analysis.

                  57
                    OIG, Analyzing Changes to Medicaid Federal Upper Limit Amounts
                  (OEI-03-11-00650), October 2012.



Medicaid Drug Pricing in State Maximum Allowable Cost Programs (OEI-03-11-00640)             21
                  Once the rolling average FUL amounts are finalized, States may use these
                  to develop a pharmacy reimbursement methodology that will allow their
                  pharmacy payments to remain within the post-ACA FUL, in the aggregate
                  (pending CMS review and approval of their respective State Medicaid
                  plans).
                  Encourage States To Reevaluate Their MAC Programs To
                  Identify Additional Cost-Saving Opportunities
                  States may also have the opportunity to strengthen the cost-effectiveness
                  of their MAC programs. States varied in the structure and aggressiveness
                  of their MAC programs, giving certain States the potential to further
                  reduce their drug spending if they model their MAC program after that of
                  another State. This can be achieved through changes to the State’s
                  inclusion criteria and/or to the State’s methodology to set the MAC prices.
                  In addition, the flexibility States have when determining covered MAC
                  drugs enabled them to cover significantly more drugs than the pre-ACA
                  FUL program. This allowed States to further optimize their cost
                  containment by limiting reimbursement for a greater number of drugs than
                  the FUL program does. The need for a MAC program to maximize drug
                  cost containment will remain even after the post-ACA FULs are
                  implemented. The latitude that States have to develop MAC criteria that
                  are less restrictive than those of the FUL program allows States to
                  continue to set reimbursement limits on considerably more
                  multiple-source drugs, in addition to still setting MAC prices lower than
                  FULs for a number of drugs covered under both programs.




Medicaid Drug Pricing in State Maximum Allowable Cost Programs (OEI-03-11-00640)           22
                  AGENCY COMMENTS AND OFFICE OF INSPECTOR GENERAL
                  RESPONSE
                  CMS concurred with both recommendations. In response to our first
                  recommendation, CMS stated that it plans to finalize the post-ACA
                  AMP-based FUL amounts in the near future. CMS also stated that it plans
                  to release an informational bulletin that encourages States to reevaluate
                  their MAC programs for cost-saving opportunities in the near future.
                  We did not make any changes to the report based on CMS’s comments.
                  The full text of CMS’s comments is provided in Appendix E.




Medicaid Drug Pricing in State Maximum Allowable Cost Programs (OEI-03-11-00640)         23
                  APPENDIX A
                  Methodology Used To Compare State Maximum Allowable
                  Cost (MAC) Programs
                  Review of State MAC Lists. Each of the 45 States with MAC programs
                  provided a spreadsheet of MAC prices. We reviewed each MAC
                  spreadsheet and kept prices that were current as of January 1, 2012. To do
                  so, we removed any MAC prices for which the State provided an end date
                  of December 31, 2011, or earlier. We also verified that the MAC
                  spreadsheets did not contain duplicate drug prices and followed up with
                  States for clarification when necessary.
                  All States did not use the same drug code to identify and set MAC prices
                  for drugs. Eight of the forty-five States reported that drug codes were
                  proprietary information and did not provide any drug codes. Among the
                  37 States that provided drug codes:
                           21 used Generic Code Numbers (GCN),
                           10 used Generic Sequence Numbers (GSN),
                           4 used Group Product Identifiers (GPI),
                           1 used Generic Formulation Codes (GFC), and
                           1 used National Drug Codes (NDC).58
                  The GCN, GSN, GPI, and GFC are similar in that they are used to group
                  pharmaceutically equivalent drugs marketed by multiple manufacturers
                  and are specific to the active ingredient, route of administration, dosage
                  form and drug strength. These drug codes vary in digit length and/or
                  publishing company.
                  Crosswalking Drug Codes. Using information in First DataBank’s
                  National Drug Data File, we matched the GSNs, GCNs, and NDCs to
                  create a database crosswalking all three types of drugs codes. Because
                  NDCs are manufacturer-specific and GCNs are not, one GCN often
                  matched to multiple NDCs. In general, most GSNs had one-to-one
                  matches to GCNs. There were a few instances in which GSN-to-GCN
                  crosswalking resulted in a slightly lower count of covered drug codes. For
                  example, 1 State covered 2,082 GSN codes, but when crosswalked it
                  translated to 2,080 GCN codes. We were unable to crosswalk State
                  spreadsheets with GFC, GPI, or no drug codes. As a result, portions of the


                  58
                    One State used GCN codes for most of its drugs, but set MAC prices by NDC for
                  certain drug types. In this count, we have classified this State as using GCNs.



Medicaid Drug Pricing in State Maximum Allowable Cost Programs (OEI-03-11-00640)                    24
                  analysis involving MAC price comparisons (i.e., MAC and FUL price
                  comparisons and State savings estimates) include 32 States.
                  Comparison of MAC and FUL Amounts. We obtained the pre-Affordable
                  Care Act (ACA) FUL amounts from First DataBank for the first quarter of
                  2012, which are listed by NDC. We matched the NDC to the
                  corresponding GCN and GSN (this eliminated the need to crosswalk State
                  MAC data for this analysis). Depending on whether the State used a GCN
                  or GSN, we matched the FUL amounts to the 32 States’ MAC data and
                  identified the drugs covered under both programs.
                  Sixteen of the thirty-two States had multiple MAC prices for certain drugs.
                  This may have occurred when, for example, the State set a different price
                  for each package size of the drug. If the MAC price variation was $0.10
                  or less, we selected the highest MAC price for this comparison. However,
                  if the MAC price varied by more than $0.10 for the same drug code, we
                  removed that code from this portion of the analysis. Less than 3 percent
                  of drug codes were removed for most (12) of the 16 States. However, the
                  remaining 4 States had between 6 and 28 percent of their drug codes
                  removed for the following analyses involving State MAC drug prices.
                  We calculated the percentage difference between each State’s aggregate
                  MAC price and the aggregate pre-ACA FUL amount (based on published
                  prices), on average.59 We determined the percentage of drugs with MAC
                  prices that were lower than the pre-ACA FUL amounts for each State and
                  on average for all States. We also reviewed the 32 States’ survey
                  responses and determined the number of States that, when the drug was
                  covered under both programs, (1) reimburse using the lower of the MAC
                  price or FUL amount; (2) defer to the MAC price; or (3) defer to the FUL
                  amount.
                  Finally, we calculated the percentage difference between each State’s
                  aggregate MAC price and the aggregate post-ACA FUL amount for
                  January 2012 (based on average manufacturer price). We also determined
                  the average number of additional drugs State MAC programs covered than
                  the post-ACA FUL program.
                  Savings Estimate. We had to use the same drug code to make MAC prices
                  comparable among States. This means that we could compare only the
                  MAC programs among the 21 States that provided GCNs and the 11 States
                  where we could crosswalk the GSN or NDC to a GCN. We applied the
                  same method described above (i.e., $0.10 method) to select or remove the
                  MAC price when the State set more than one price for a drug code.

                  59
                       We did not include dispensing fees.




Medicaid Drug Pricing in State Maximum Allowable Cost Programs (OEI-03-11-00640)          25
                  We substituted MAC prices used in each of these 32 States and determined
                  the difference in reimbursement had each State used another State’s MAC
                  program. For example, if State A set a MAC price for GCN 00001, we
                  calculated the difference between State A’s MAC price and State B’s
                  average volume-weighted reimbursement amount and then multiplied this
                  difference by State B’s total utilization for GCN 00001. We completed
                  this comparison for all of State B’s drugs that were also covered by State
                  A’s MAC program. We summed the total estimated difference in State B’s
                  Medicaid spending had it used State A’s MAC program. We continued our
                  comparison of State A’s MAC prices to the average volume-weighted
                  reimbursement amounts in State C, State D, and so forth until State A’s
                  MAC prices were compared to each State with data in CMS’s Medicaid
                  reimbursement and utilization file for the first and second quarters of
                  2011.
                  We used the first two quarters of 2011 from the Medicaid reimbursement
                  file to calculate States’ average volume-weighted reimbursement amounts.
                  By using these quarters and the January 2012 MAC prices to estimate
                  savings, we assumed that spending and utilization would not change
                  significantly from month to month. This file did not contain data for all
                  States; we could compute average volume-weighted reimbursement
                  amounts for only 46 States.60




                  60
                    This also contained only one-quarter of data for seven States. We doubled the
                  reimbursement and utilization in these States to estimate total first half of 2011 amounts.



Medicaid Drug Pricing in State Maximum Allowable Cost Programs (OEI-03-11-00640)                           26
                  APPENDIX B

                  Table B-1: Dispensing Fees and Benchmarks Used As the Basis For
                  Setting State Maximum Allowable Cost (MAC) Prices
                                                 State Benchmark Used For       Dispensing Fee in First Quarter
                    State                                     MAC Prices                                 2012*
                                                                      1     2
                    Alabama                                     WAC, AAC                                    $10.64

                                                                                   Multiple dispensing fees ranging
                                                                      3
                    Alaska                                      AWP, WAC                  from $12.12 to $26.74 for
                                                                                                in-state pharmacies

                    Arkansas                                              AAC              $5.51 for MAC generics

                                                                                $4.00 for retail pharmacies; $1.89
                    Colorado                                              AAC
                                                                                       for institutional pharmacies

                    Connecticut                                           AWP                                $2.00

                    District of Columbia                                  WAC                                $4.50

                    Delaware                                     AWP, WAC                                    $3.65

                    Florida                                       Proprietary                                $3.73

                                                                                $4.63 for profit pharmacies; $4.33
                    Georgia                                 AWP, WAC, AAC
                                                                                          for nonprofit pharmacies

                    Hawaii                                                AWP                $4.67 for pharmacies

                    Illinois                                     WAC, AAC                        $4.60 for generics

                    Indiana                                               AAC                   $3.00 standard fee

                    Iowa                                                  AAC                                $6.20

                    Kansas                                                WAC                                $3.40

                    Kentucky                                     WAC, AAC                        $5.00 for generics

                    Louisiana                                             AAC                  $5.77 maximum fee

                                                                                $3.35 for retail pharmacies; $1.00
                    Maine                                                 AAC
                                                                                        for mail-order pharmacies

                    Maryland                                              AAC                                $3.51

                    Massachusetts                                AWP, WAC                                    $3.00

                    Michigan                                     WAC, AAC                                    $2.75
                                                                            4
                    Minnesota                                    WAC, AAC                                    $3.65

                                                                                   Multiple dispensing fees ranging
                    Missouri                                              AAC
                                                                                               from $9.66 to $13.66

                                                                                   Multiple dispensing fees ranging
                    Montana                                               AAC
                                                                                                from $2.00 to $6.40

                                                                            5      Multiple dispensing fees ranging
                    Nebraska                                              N/A
                                                                                                from $3.25 to $5.00

                                                                                              continued on next page




Medicaid Drug Pricing in State Maximum Allowable Cost Programs (OEI-03-11-00640)                                     27
                  Table B-1: Dispensing Fees and Benchmarks Used As the Basis For
                  Setting State MAC Prices

                                                            State Benchmark Used For             Dispensing Fee in First Quarter
                       State                                             MAC Prices                                       2012*
                       New Hampshire                                               WAC, AAC                                  $1.75

                       New Jersey                                                        AAC                                 $3.73

                                                                                                  Multiple dispensing fees ranging
                       New Mexico                                                       WAC
                                                                                                               from $2.50 to $3.65

                       New York                                                    WAC, AAC                                  $3.50

                       North Carolina                                                    AAC                     $5.60 for generics

                       North Dakota                                                      AAC                     $5.60 for generics

                       Ohio                                                        WAC, AAC                                  $1.80

                       Oklahoma                                                    Proprietary                               $4.02

                       Pennsylvania                                                      AAC                                 $4.00

                       Rhode Island                                                AWP, WAC             $3.40 for retail pharmacies

                       South Carolina                                              WAC, AAC                                  $3.00

                       South Dakota                                                Proprietary                               $4.30

                       Tennessee                                         AWP, WAC, AAC                           $2.50 for generics

                       Texas                                                       AWP, WAC                                  $6.50

                                                                                                 $1.00 for over-the-counter drugs;
                                                                                             6
                       Utah                                             AWP, WAC, AAC                $3.90 for urban pharmacies;
                                                                                                        $4.40 for rural pharmacies

                       Vermont                                           AWP, WAC, AAC                $4.75 for in-state pharmacies

                       Virginia                                                         WAC                                  $3.75

                                                                                                  Multiple dispensing fees ranging
                       Washington                                                        AAC
                                                                                                               from $4.24 to $5.25

                       West Virginia                                               WAC, AAC                      $5.30 for generics

                       Wisconsin                                                        WAC                      $3.94 for generics
                                                                               7
                       Wyoming                                   AWP, AMP, WAC, AAC                                          $5.00

                  Source: Office of Inspector General analysis of State MAC survey responses, 2012.
                  * States may have additional dispensing fees. We excluded fees that are specific for brand-name drugs, 

                  compounded drugs, intravenous solutions, out-of-State pharmacies, 340B entities, and long-term-care/nursing home 

                  facilities. 

                  1
                      Wholesale acquisition cost.

                   2
                       Average acquisition cost. 

                  3
                       Average wholesale price. 

                  4
                       Minnesota also uses other State MAC lists to assist in setting MAC prices. 

                  5
                       Not applicable. Nebraska does not have a standard formula to set MAC prices. 

                  6
                       Utah also uses other State MAC lists to assist in setting MAC prices. 

                  7
                       Average manufacturer price.





Medicaid Drug Pricing in State Maximum Allowable Cost Programs (OEI-03-11-00640)                                                  28
                      APPENDIX C
          Table C-1: State Maximum Allowable Cost (MAC) Prices Compared to Federal
          Upper Limit (FUL) Amounts
                                                                                                   Percentage
                                   Percentage of           Percentage                               Difference
                                                                              Percentage of
                                  MAC Drugs with            Difference                                Between
                                                                           MAC Drugs with
                                     Prices Less     Between Pre-ACA                             Post-ACA FUL
           State                                                          Prices Less Than
                                   Than Pre-ACA       FUL Amount and                           Amount and MAC
                                                                           Post-ACA FUL**
                                            FUL*          MAC Prices                                    Prices

           Alabama                         88.1%               146.9%                59.7%                   -2.5%

           Arkansas                        80.5%                67.4%                13.0%                  -32.8%

           Colorado                        58.9%                15.5%                 7.8%                  -40.1%

           District of Columbia            80.4%                69.9%                20.9%                  -35.0%

           Hawaii                          10.0%                -55.7%                3.3%                  -76.0%

           Iowa                            99.8%               184.3%                40.8%                  -13.2%

           Illinois                        91.6%               137.9%                42.4%                   -5.7%

           Indiana                         88.4%               115.4%                43.5%                  -10.1%

           Kansas                          95.1%               111.8%                30.1%                  -17.7%

           Louisiana                       81.3%                71.2%                12.4%                  -49.2%

           Massachusetts                   76.1%                13.8%                12.4%                  -45.5%

           Maryland                        86.6%               132.4%                41.8%                    2.2%

           Michigan                        94.7%               136.1%                45.3%                    0.3%

           Minnesota                       94.3%               111.0%                35.9%                   -7.2%

           Missouri                        88.7%               122.1%                35.1%                  -21.3%

           Montana                         94.2%               180.1%                33.2%                  -10.8%

           North Carolina                  84.3%                90.4%                21.6%                  -31.9%

           North Dakota                    82.3%                84.5%                26.6%                   -9.3%

           Nebraska                        88.3%                70.4%                25.4%                  -20.4%

           New Jersey                      90.2%               127.9%                38.5%                  -15.3%

           New Mexico                      62.4%                  1.4%                8.5%                  -48.5%

           New York                        94.0%               139.3%                40.6%                   -6.1%

                                                                                              continued on next page




Medicaid Drug Pricing in State Maximum Allowable Cost Programs (OEI-03-11-00640)                                29
             Table C-1: State MAC Prices Compared to FUL Amounts (Continued)
                                                                                                                   Percentage
                                      Percentage of               Percentage
                                                                                          Percentage of             Difference
                                     MAC Drugs with                Difference
                                                                                       MAC Drugs with                 Between
                                        Prices Less         Between Pre-ACA
              State                                                                   Prices Less Than           Post-ACA FUL
                                      Than Pre-ACA           FUL Amount and
                                                                                       Post-ACA FUL**          Amount and MAC
                                               FUL*              MAC Prices
                                                                                                                        Prices

              Ohio                               97.0%                     69.9%                    24.9%                   -29.2%

              Oklahoma                           69.2%                     91.9%                    26.4%                    -3.3%

              Pennsylvania                       88.7%                   121.6%                     35.1%                   -19.5%

              South Dakota                       98.5%                   111.1%                     25.9%                   -14.1%

              Texas                              94.2%                     46.7%                    20.2%                   -32.6%

              Utah                               92.1%                     18.3%                    12.0%                   -55.8%

              Washington                         88.7%                   128.1%                     37.7%                    -6.5%

              Wisconsin                          88.9%                   126.5%                     40.2%                   -13.8%

              West Virginia                      93.3%                   126.3%                     40.5%                   -10.8%

              Wyoming                            96.6%                   165.3%                     46.0%                    -5.8%

         Source: Office of Inspector General analysis of State survey responses and the Centers for Medicare & Medicaid Services FUL
         amounts, 2012. 
         * FUL amounts based on published prices compared to MAC prices. 

         ** FUL amounts set by the Affordable Care Act (ACA), which are based on average manufacturer prices, compared to MAC 

         prices. 


          
          
          
          
          




Medicaid Drug Pricing in State Maximum Allowable Cost Programs (OEI-03-11-00640)                                                  30
                  APPENDIX D

                  Criteria States Use To Select Drugs Included in State Maximum
                  Allowable Cost (MAC) Programs

                  We asked each State about the criteria used to determine the drugs
                  included in its MAC program. We provided States with a list of criteria,
                  along with examples:

                       	 approval rating (e.g., Orange Book or Food and Drug 

                          Administration (FDA) rating); 

                       	 therapeutic equivalence (TE) (e.g., must have at least two TE
                          versions of a drug);
                       	 generic availability (e.g., must be at least two generic versions);
                       	 manufacturer supply (e.g., must be supplied by at least three
                          manufacturers);
                       	 pharmacy availability (e.g., must be available in at least three
                          pharmacies);
                       	 drug cost (e.g., drug price increased more than 5 percent in the last
                          quarter);
                       	 utilization (e.g., at least 500 beneficiaries have prescriptions for a
                          drug); and
                       	 any other criteria not listed above.
                  Table D-1 depicts the criteria response for each State as well as a short
                  descriptor of the State’s applicable criteria. Table D-2 provides the
                  number of drug codes covered under each State’s MAC program. It also
                  includes the number of covered drug codes after crosswalking to a Generic
                  Code Number (GCN).




Medicaid Drug Pricing in State Maximum Allowable Cost Programs (OEI-03-11-00640)                   31
Table D-1: Criteria States Use To Select Drugs Included in MAC Programs
                                                                           Criteria

                                                                     Minimum
                                                 Therapeutic        Number of
                               Approval          Equivalence         Available    Manufacturer          Pharmacy
 State                           Rating                  (TE)        Generics          Supply          Availability      Drug Cost

                                                                   One generic
 Alabama                                                                version


                                                                                                                          Significant
                                                                                                                                  cost
                                                                                                                          difference
                                                                                                                         (thresholds
                                 A-rated                           Two generic              Two                                   are
                                          1
 Alaska                        generics       Two TE versions          versions   manufacturers         On market       proprietary)


                                                                                                      Available by
                                                                                                           multiple
                               AB rated;                                                               wholesalers
                            case-by-case                           Two generic              Two                and
 Arkansas                     evaluation                               versions   manufacturers        pharmacies


                                                                                            Two
 Colorado                        A rated                                          manufacturers


                                                                   Two generic              Two
 Connecticut                    AB rated                               versions   manufacturers


                                                                                                    Three or more
                                                Number of TE                                           pharmacies
                                                  versions not    Three generic                      submit claims
                        2
 District of Columbia           AB rated             specified         versions                     in prior quarter


                                                                     Number of
                                                                        generic           Three
                                                     Three TE      versions not   rebate-eligible
            3
 Delaware                        A rated              versions        provided    manufacturers


                                                                     Number of
                                                                        generic
                                                                   versions not
 Florida                                                              provided


                                                                                            Two
                                                                                  rebate-eligible
                                               All versions are    Two generic           generic           Readily
 Georgia                         A rated                    TE         versions   manufacturers           available


                                                                                                               continued on next page




     Medicaid Drug Pricing in State Maximum Allowable Cost Programs (OEI-03-11-00640)                                        32
Table D-1: Criteria States Use To Select Drugs Included in MAC Programs (Continued)
                                                                         Criteria

                                                                  Minimum
                                                                 Number of
                           Approval        Therapeutic            Available      Manufacturer          Pharmacy
State                        Rating        Equivalence            Generics            Supply          Availability        Drug Cost

                                                                One generic                 Two
Illinois                                                             version     manufacturers


                                         At least one TE        One generic         One generic
Indiana                      A rated            version              version        manufacturer


                                         At least one TE        One generic                 Two
Iowa                         A rated            version              version     manufacturers


                                          Number of TE                                             Case-by-case
                                            versions not        One generic                        if availability is
Kansas                       A rated           specified             version                              an issue


                           A rated; Z
                               4
                          rated on a                                                               Case-by-case
                        case-by-case                            Two generic                        if availability is
Kentucky                   evaluation   Two TE versions             versions                              an issue


                                                                  Number of
                                                                     generic
                                              Three TE          versions not              Three
Louisiana                    A rated           versions             provided     manufacturers

        5
Maine                                                      Did not use any of the above criteria


                                                                Two generic         Two generic
Maryland                     A rated                                versions     manufacturers

                6
Massachusetts                                              Did not use any of the above criteria


                           A rated; Z
                           rated on a                                                              Case-by-case
                        case-by-case                                                Two generic    if availability is
Michigan                   evaluation   Two TE versions                          manufacturers            an issue


                                                                                                   Available from
                                                                One generic                                  major
Minnesota                                                            version                          wholesalers

                                                                                                                continued on next page




     Medicaid Drug Pricing in State Maximum Allowable Cost Programs (OEI-03-11-00640)                                         33
Table D-1: Criteria States Use To Select Drugs Included in MAC Programs (Continued)

                                                                        Criteria

                                                                 Minimum
                                                                Number of
                          Approval        Therapeutic            Available      Manufacturer           Pharmacy
State                       Rating        Equivalence            Generics            Supply           Availability        Drug Cost

                                                                                                           Readily
                                         Number of TE                                     Three          available;           Assess
                                           versions not        Two generic      rebate-eligible       monitors for         drug’s net
Montana                     A rated           specified            versions     manufacturers           shortages                  cost


                                                                                                                        Assess if cost
                                                                                                                            less than
                                                                                                                            estimated
                                                                                                           Readily         acquisition
Nebraska                                                                                                 available                 cost


                          A rated; Z
                          rated on a                                                               Case-by-case
                       case-by-case                                                 Two generic    if availability is
New Hampshire             evaluation   Two TE versions                          manufacturers             an issue


New Jersey                  A rated


                                                                                            Two
New Mexico                                                                      manufacturers


                          A rated; Z
                          rated on a                                                               Case-by-case
                       case-by-case                                                 Two generic    if availability is
New York                  evaluation   Two TE versions                          manufacturers             an issue

                                         Number of TE                                       Two                               Assess
                                           versions not        One generic      rebate-eligible            Readily         drug’s net
North Carolina              A rated           specified             version     manufacturers            available                 cost


North Dakota                                              Did not use any of the above criteria


                                         Number of TE
                                           versions not                                     Two
Ohio                        A rated           specified                         manufacturers


                                                               Two generic         Three generic
Oklahoma                                                           versions     manufacturers


                                                                                                                continued on next page




    Medicaid Drug Pricing in State Maximum Allowable Cost Programs (OEI-03-11-00640)                                          34
Table D-1: Criteria States Use To Select Drugs Included in MAC Programs (Continued)

                                                                         Criteria


                                                                  Minimum
                                                                 Number of
                          Approval        Therapeutic             Available      Manufacturer           Pharmacy
State                       Rating        Equivalence             Generics            Supply           Availability        Drug Cost

                                                                  Number of
                                                                     generic
                                                                versions not               Three
Rhode Island                                                        provided     manufacturers


                          A rated; Z
                          rated on a                                                                Case-by-case
                       case-by-case                                                  Two generic    if availability is
South Carolina            evaluation   Two TE versions                           manufacturers             an issue


                                                                                     Two generic
South Dakota                                                                    manufacturers


                                        All versions are        Two generic                  Two            Readily
Tennessee                   A rated                  TE             versions     manufacturers            available


                          AA or AB                             Three generic        Three generic      Available in
Texas                          rated                                versions     manufacturers         wholesalers


                                                                One generic
Utah                                                                 version


                                                                                             Two
                                                                                 rebate-eligible
                                        All versions are        Two generic               generic           Readily
Vermont                     A rated                  TE             versions     manufacturers            available


                                                                                           Three
Virginia                   AB rated                                              manufacturers


Washington                                                 Did not use any of the above criteria


                                                                                           Three
West Virginia                                                                    manufacturers


                                                                                                            Readily
                                         Number of TE                                                     available;
                                           versions not         One generic                  Two       monitors for
Wisconsin                   A rated           specified              version     manufacturers           shortages


                                                                                                                 continued on next page




    Medicaid Drug Pricing in State Maximum Allowable Cost Programs (OEI-03-11-00640)                                           35
    Table D-1: Criteria States Use To Select Drugs Included in MAC Programs (Continued)

                                                                                              Criteria

                                                                                      Minimum
                                                                                     Number of
                                       Approval             Therapeutic               Available        Manufacturer              Pharmacy
     State                               Rating             Equivalence               Generics              Supply              Availability       Drug Cost
                                                                                                                                                  Must have at
                                                                                                                                                     least two
                                                                                    One generic                    One             Currently         drug-cost
                7
     Wyoming                                                                              version        manufacturer               available       references

        Number of States                        28                       21                     29                    32                     21             7

Source: Office of Inspector General (OIG) analysis of State survey responses, 2012. 

1
    An “A”-rated drug is one that FDA considers to be therapeutically equivalent to other pharmaceutically equivalent products. Subcategories within 

the “A” rating include “AA” and “AB” ratings. 

2
    The District of Columbia requires that a drug have at least three claims in the prior quarter for it to be included on its MAC list. 

3
    Delaware also requires that a drug have a least 75 claims per quarter for it to be included on its MAC list. 

4
    A “Z” rating is not an official rating by FDA but through First DataBank, which supports databases for drugs. A “Z” rating is generally used by drug

companies to designate drugs approved under different labels, drugs not in FDA’s Orange Book, or brand drugs with no available generics. 

5
    Maine requires that a drug have an active, rebateable NDC that is available to pharmacies for it to be included on its MAC list. 

6
    Massachusetts requires that a drug have at least four claims in the past 90 days for it to be included on its MAC list. 

7
    Wyoming also requires that the drug have potential use in the Medicaid outpatient population for it to be included on its MAC list. 





          Medicaid Drug Pricing in State Maximum Allowable Cost Programs (OEI-03-11-00640)                                                             36
        Table D-2: Number of Drugs Covered on States’ MAC Lists
                                                                           Number of           Number of
         State Medicaid                                                     Covered
                                                    Drug Code Used                              Covered
         Agency                                                            Drugs (By              GCNs
                                                                              Code)

         Alabama                    Generic Sequence Number (GSN)                  3,385             3,384

                                                                                         1
         Alaska                                  Codes Not Provided                N/A                 N/A

                                       GCN and National Drug Codes         1,122 GCNs
         Arkansas                                            (NDC)           252 NDCs                1,217

         Colorado                                                GCN               2,684             2,684

         Connecticut                             Codes Not Provided                 N/A                N/A

         District of Columbia                                   GCN                1,479             1,479

         Delaware                          Generic Formulation Code                2,170               N/A

         Florida                                 Codes Not Provided                 N/A                N/A

         Georgia                       Group Product Identifiers (GPI)             1,593               N/A

                                                                       2
         Hawaii                                                 GCN                1,446             1,446

                                                                       3
         Illinois                                               GCN                1,743             1,743

         Indiana                                                 GCN               1,658             1,658

         Iowa                                                    GCN               1,327             1,327

         Kansas                                                  GCN               1,325             1,325

         Kentucky                                Codes Not Provided                 N/A                N/A

         Louisiana                                               GSN               1,157             1,157

                                                                       4
         Maine                                                   GPI               2,550               N/A

         Maryland                                                NDC           29,419                1,691

         Massachusetts                                          GCN                5,355             5,355

         Michigan                                                GSN               2,237             2,105

         Minnesota                                               GSN           2,082                 2,080

         Missouri                                                GCN               1,388             1,388

         Montana                                                 GCN                494                494

         Nebraska                                                GSN               3,727             3,677

         New Hampshire                           Codes Not Provided                 N/A                N/A

                                                                                      continued on next page




Medicaid Drug Pricing in State Maximum Allowable Cost Programs (OEI-03-11-00640)                               37
            Table D-2: Number of Drugs Covered on States’ MAC Lists (Continued)
                                                                                              Number of
                                                                                                                  Number of
            State Medicaid                                                                     Covered
                                                               Drug Code Used                                      Covered
            Agency                                                                            Drugs (By
                                                                                                                     GCNs
                                                                                                 Code)

            New Jersey                                                       GCN                  2,122               2,122

            New Mexico                                                       GCN                  2,442               2,442

            New York                                                         GCN                  2,090               2,090

            North Carolina                                                   GCN                  1,388               1,388

            North Dakota                                                     GSN                  2,048               2,048

            Ohio                                                             GCN                   926                  926

            Oklahoma                                                         GCN                  2,017               2,017

            Pennsylvania                                                     GCN                  1,469               1,469

            Rhode Island                                    Codes Not Provided                     N/A                 N/A

            South Carolina                                  Codes Not Provided                     N/A                  N/A

                                                                                   5
            South Dakota                                                    GCN                   1,846               1,846

                                                                                                         6
            Tennessee                            GPIs and Codes Not Provided            At least 1,526                 N/A

                                                                                   7
            Texas                                                            GSN                  1,158               1,158

                                                                                   8
            Utah                                                             GSN                  1,728               1,727

            Vermont                                                            GPI                1,885                 N/A

            Virginia                                        Codes Not Provided                     N/A                 N/A

            Washington                                                       GCN                  1,495               1,495

            West Virginia                                                    GSN                  1,349               1,349

            Wisconsin                                                        GSN                  1,870               1,864

                                                                                   9
            Wyoming                                                         GCN                   1,592               1,592

        Source: OIG analysis of State MAC spreadsheets, 2012. 

        1
            N/A indicates that we were unable to crosswalk the code to a GCN or a drug code was not provided. 

        2
            Hawaii also provided the corresponding NDC for each GCN on its spreadsheet. 

        3
            Illinois also provided the corresponding GSN for each GCN on its spreadsheet. 

        4
            Maine also provided the corresponding NDC for a select number of GPIs on its spreadsheet.

        5
            South Dakota also provided the corresponding GPI for each GCN on its spreadsheet. 

        6
            Tennessee set MAC prices using GPIs for most drugs. However, it also had a separate MAC list for drugs covered under the 

        $4 generic program; the State did not provide drug codes for these drugs. 

        7
            Texas provided GSNs on its MAC spreadsheet. However, the State has created its own drug code to set MAC prices. 

        8
            Utah also provided the corresponding NDC for each GSN on its spreadsheet.

        9
            Wyoming also provided the corresponding GSN for each GCN and the corresponding NDC for select GCNs on its spreadsheet. 





Medicaid Drug Pricing in State Maximum Allowable Cost Programs (OEI-03-11-00640)                                                    38
                                 APENDIX E
                                 Agency Comments


        ,..,.......,......
    (            ~             DEPARTMENT OF HEALTH & HUMAN SERVICES                                   Centers for Medicare & Medicaid Services


        ,~"r                                                                                           Administrator
                                                                                                       Washington, DC 20201




                             DATE:           JUL -9 2013
                             TO: 	          Daniel R. Levinson 

                                            In spector General 

                                                                /S/
                             FROM: 	        MaNfyiYNivenner 

                                            Admi'ilietra\Or 


                             SUBJECT: 	 Oftice of Inspector Geneml (OIG) Draft Report: "Medicaid Drug Pricing in State
                                        Maximum Allowable Cost Programs" (OEI-03-11-00640)


                             The Centers for Medicare & Medicaid Services (CMS) appreciates the opportunity to review and
                             comment on the above-referenced OIG draft report. In January 2012, OIG surveyed the 45 states
                             (including the District of Columbia) with Max imum Allowable Cost (MAC) programs to identify the
                             methods and criteria used to set MAC prices on multiple source drugs in the state . OIG compared
                             states' criteria for selecting drugs and setting prices in their MAC programs and also calculated the
                             aggregate percentage difference between each state's MAC prices and the federal upper limit (FUL)
                             amounts in effect for the first quarter of2012 based on published prices, a~ well as the draft FUL
                             amounts set by the Affordable Care Act (ACA) based on average manufacturer prices (AMP).
                             Finally, OIG identified the state with the most aggressive MAC program and calculated the potential
                             national savings had all states used this program.

                             OIG Findings

                             Most of the 45 states with MAC programs used acquisition cost to set MAC prices. OIG found the
                             aggregate pre-ACA FUL amounts were, on average, nearly double state MAC prices in January 2012 .
                             However, the aggregate post-ACA FUL amounts were lower, on average, than MAC prices.
                             Although the new FUL amounts were required to take effect in October 2010, as of May 2013 , CMS
                             had not implemented them. Unlike the FUL program, state MAC programs provide states the
                             flexibility to set their own coverage requirements. As a result, state MAC programs cover
                             significantly more drugs than are covered under the FUL program . Lastly, states could achieve
                             additional cost savings by using more aggre ssive MAC pricing formulas and inclusion criteria.

                             Specifically, this report found that for the study period :

                                 • 	 Most states with MAC programs used pharmacy acquisition cost to set their MAC prices.
                                 • 	 Aggregate pre-ACA FUL amounts, on average, were almo st double than state MAC prices;
                                     however, the post-ACA F UL amounts were lower than state MAC prices, in the aggregate.
                                 • 	 Aggregate post-ACA FUL amounts were, on average, 22 percent lower than state MAC
                                     prices.




Medicaid Drug Pricing in State Maximum Allowable Cost Programs (OEI-03-11-00640)                                                                  39
Medicaid Drug Pricing in State Maximum Allowable Cost Programs (OEI-03-11-00640)   40
                  ACKNOWLEDGMENTS
                  This report was prepared under the direction of Robert A. Vito, Regional
                  Inspector General for Evaluation and Inspections in the Philadelphia
                  regional office.
                  Stephanie Yeager served as the team leader for this study, and
                  Stefanie Vance served as the lead analyst. Central office staff who
                  provided support include Althea Hosein, Kevin Manley, and Christine
                  Moritz. Staff from the Dallas regional office who provided support
                  include Leah Bostick.




Medicaid Drug Pricing in State Maximum Allowable Cost Programs (OEI-03-11-00640)             41
                Office of Inspector General

                                 http://oig.hhs.gov

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as
amended, is to protect the integrity of the Department of Health and Human Services
(HHS) programs, as well as the health and welfare of beneficiaries served by those
programs. This statutory mission is carried out through a nationwide network of audits,
investigations, and inspections conducted by the following operating components:

Office of Audit Services
The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting
audits with its own audit resources or by overseeing audit work done by others. Audits
examine the performance of HHS programs and/or its grantees and contractors in carrying
out their respective responsibilities and are intended to provide independent assessments of
HHS programs and operations. These assessments help reduce waste, abuse, and
mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide
HHS, Congress, and the public with timely, useful, and reliable information on significant
issues. These evaluations focus on preventing fraud, waste, or abuse and promoting
economy, efficiency, and effectiveness of departmental programs. To promote impact, OEI
reports also present practical recommendations for improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations
of fraud and misconduct related to HHS programs, operations, and beneficiaries. With
investigators working in all 50 States and the District of Columbia, OI utilizes its resources
by actively coordinating with the Department of Justice and other Federal, State, and local
law enforcement authorities. The investigative efforts of OI often lead to criminal
convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to
OIG, rendering advice and opinions on HHS programs and operations and providing all
legal support for OIG’s internal operations. OCIG represents OIG in all civil and
administrative fraud and abuse cases involving HHS programs, including False Claims Act,
program exclusion, and civil monetary penalty cases. In connection with these cases, OCIG
also negotiates and monitors corporate integrity agreements. OCIG renders advisory
opinions, issues compliance program guidance, publishes fraud alerts, and provides other
guidance to the health care industry concerning the anti-kickback statute and other OIG
enforcement authorities.
